No.

In The
Supreme Court of the United States

October Term, 2019

ANTONIO U. AKEL,
Petitioner,

Vv.

United States of America,
Respondent.

PROOF OF SERVICE

I, Noel G. Lawrence do declare that on this date, 27" of August, 2020,
pursuant to Supreme Court Rules 29.3 and 29.4, I have served the attached
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION
FOR WRIT OF CERTIORARI on each party to the above proceeding, or that
party's counsel, and on every other person required to be served by depositing an
envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid.

The names and addresses of those served are as follows:

Hon. Noel Francisco
Solicitor General of the United States
Department of Justice- Room 5614
950 Pennsylvania Avenue, N. W.
Washington, D. C. 20530-0001

SAA ke P

AFFIANT

 

28
